FOR IMMEDIATE RELEASE                                            August 29, 2013
Media Contact: 202-565-3908

                       Mexican Farmer Sentenced to Probation
          for Scheme to Defraud the Export-Import Bank of the United States

Washington, DC – The Office of Inspector General (OIG) for Export-Import Bank of the
United States (Ex-Im Bank) announced that Jesus Armando Bustillos, from Namiquipa,
Chihuahua, Mexico, was sentenced to two-years’ probation for his role in a scheme to
defraud Ex-Im Bank of approximately $1,209,000.
Judge Kathleen Cardone, U.S. District Court in El Paso, TX, also ordered Bustillos to pay
$571,002 in restitution and $1,399,029 in forfeiture. Bustillos, a Mexican citizen, pled guilty
on January 30, 2012, to one count of conspiracy to commit wire fraud, one count of wire
fraud, and one count of money-laundering conspiracy in connection with a scheme to
defraud the Ex-Im Bank of approximately $1,209,000.
According to court documents, Bustillos was the owner of a fruit orchard located in
Namiquipa, Chihuahua, Mexico. Bustillos admitted that, from December 2004 to May 2010,
he acted as a buyer in an Ex-Im Bank guaranteed loan transaction for the purported
purchase and importation of U.S. manufactured agricultural equipment. Bustillos admitted
that instead of receiving the agricultural equipment, he and others falsified bills of lading
and other purchase and export documents and submitted them to the lending bank located
in Baltimore, Maryland and causing the bank to disburse $426,376 in loan proceeds to
Bustillos. Additionally, Bustillos admitted that between August 2006 and November 2007,
he also acted as a promoter in another fraudulent Ex-Im Bank guaranteed loan in the
amount of approximately $782,000. Bustillos received $70,500 for his role in this second
loan.
The Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s Office,
Western District of Texas, El Paso Division prosecuted the case. Ex-Im Bank OIG; Homeland
Security Investigations in El Paso, Texas; Internal Revenue Service-Criminal Investigation in
Washington, D.C., and the U.S. Postal Inspection Service in Washington, D.C. investigated the
case.
Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by
filling gaps in private export financing. Ex-Im Bank provides a variety of financing
mechanisms to help foreign buyers purchase U.S. goods and services.
Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or regulations,
fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of authority
connected with Ex-Im Bank's programs and operations. Additional information about the
OIG can be found at www.exim.gov/oig. Complaints and reports of waste, fraud, and abuse



                       811 Vermont Avenue, NW Washington, D.C. 20571
related to Ex-Im Bank programs and operations can be reported to the OIG hotline at 888-
OIG-EXIM (888-644-3946) or via email at IGhotline@exim.gov.
                                           ###
